A
V

20-5009 ORIGINAL

No.

_____

Supreme Court, U.S.
FILED

IN THE
SUPREME COURT OF THE UNITED STATES

JUN 2 7 2020
OFFICE OF THE CLERK

CURTIS WIGGINS,
Pro Se-Petitioner
VS.

GOLDEN CORRAL CORPORATION,
Respondent
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks Leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis in the
following court(s):
United States District Court
Southern District Of Texas
Houston Division
(No. 4:18-CV-00573)
United States Court of Appeals
for the Fifth Circuit
(No. 19-20374)
Petitioner’s affidavit in support of this motion is attached hereto.

urtis Wiggins
p<rSe-Petitioner

I

AFFIDAVIT IN SUPPORT OF MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
I, Curtis Wiggins, am the petitioner in the above-entitled case. In support of my motion to
proceed in forma pauperis, I state that because of my poverty I am unable to pay the costs of this
case or to give security therefor; and I believe I am entitled to redress.
In the following sources during the last 12 months, no money has been received.
(2) I have been and is currently unemployed, since May 1, 2018. (2) My Marital Status:
single (5) I own no assets, stocks, bonds, car(s), and etc. (4) No money or cash in a checking or
savings account (5) No real estate, stock, bond, security, trust, jewelry, art work, or other
financial instrument or thing of value, owned (car, house), including any item of value held in
someone else’s name; (6) No housing, utilities, or loan payments, or other regular monthly
expenses (temporarily, staying with a friend who is in bankruptcy); (7) There are no persons
dependent on me for support, my relationship with each person, and how much I contribute to
their support; (8) $758.00 dollars in debts or financial obligations to collection agencies: IC
System, and Mercantile Adjustment BU. I have Student Loans: $90K (in deferment). (9) I am
not eligible to obtain a loan for court costs; (10) I do not have an attorney providing free legal
services without a contingent fee; and (11) No attorney has agreed to pay or advance court costs
for me.
I do not expect any major changes to my monthly income, expenses, assets, or liabilities
during the next 12 months?
I declare under penalty of perjury that the foregoing is true and correct.
Further Affiant.. .So Mote It Be.”
CUprSWIGGINS
/fyro Se-Pelitiortef' ”
SUBSCRIBED AND SWORN TO BEFORE ME Curtis Wiggins on this the 25 day of
June 2020 to witness my hand and official seal of office,

<

v
VICKIE L VINSON
rNotary ID #126333582
My Commission Expires
January 28, 2024

/j

Notary Public in and for
The State of Texas
My commission expires:

